                                                                                        June 26, 2014




Executive Departments and Agencies:

In 2013, I requested U.S. government agencies conducting reconstruction activities in Afghanistan,
along with select agencies with smaller reconstruction roles, to provide my office with program and
contract data relating to those activities.

We received responses from the Department of State, Department of Defense, and the U.S. Agency
for International Development. However, several of the agencies with smaller roles in Afghanistan
reconstruction did not respond or provided answers that were incomplete.

Please direct your agency to provide comprehensive information on all of your completed, ongoing,
and planned reconstruction projects in Afghanistan between fiscal year 2002 and the present. The
information should include the following:

      Name and description of the project or program activity
      Vendor or implementing partner (if applicable)
      Contract identifier and type of legal instrument, i.e., contract, grant, cooperative agreement,
       or government-to-government agreement (if applicable)
      Estimated total project cost
      Start and end date (or expected end date if the project is ongoing)
      Funding source
      Location, including province, district, city/village, and Global Positioning System or Military
       Grid Reference System coordinates

Please provide the information listed above to Jack Mitchell, Director of the Office of Special
Projects, no later than July 26, 2014. If your agency does not have any completed, ongoing, or
planned reconstruction programs in Afghanistan, please provide a written statement to that effect.

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended. Please contact Mr. Mitchell at
                                or                   should you have any questions.


                                                               Sincerely,




                                                               John Sopko
                                                               Special Inspector General
                                                                 for Afghanistan Reconstruction
EXECUTIVE DEPARTMENTS AND AGENCIES:
The Honorable Eric H. Holder, Jr.
Attorney General

The Honorable Jeh C. Johnson
Secretary of Homeland Security

The Honorable Anthony R. Foxx
Secretary of Transportation

The Honorable Penny S. Pritzker
Secretary of Commerce

The Honorable Jacob J. Lew
Secretary of the Treasury

The Honorable Gina McCarthy
Administrator of the Environmental Protection Agency

The Honorable Ernest J. Moniz
Secretary of Energy

The Honorable Sylvia M. Mathews Burwell
Secretary of Health and Human Services

The Honorable Thomas J. Vilsack
Secretary of Agriculture

The Honorable Thomas E. Perez
Secretary of Labor

The Honorable Sally M. Jewell
Secretary of the Interior

The Honorable Sloan D. Gibson
Secretary of Veterans Affairs (Acting)




SIGAR-14-71-SP Inquiry Letter: Request for Reconstruction Program Data Information   Page 2
Brown, Jeremy S CIV USARMY HQDA (US)
From:                Charles Siner [                  ]
Sent:                Thursday, July 24, 2014 3:18 PM
To:                  MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US)
Cc:                  Brown, Jeremy S CIV USARMY HQDA (US)
Subject:             FY2013 SP Data Request
Attachments:         SIGAR FY2013 Data Call.xlsb


Jack, 
 
  
 
Please find attached the data requested by Mr. Sopko.  Please advise me if you need more 
detail or any additional information. 
 
  
 
Kind regards, 
 
  
 
Charlie Siner 
 
  
 
Charles P. Siner 
 
Deputy Director 
 
Afghanistan Investment and Reconstruction Task Force 
 
U.S. Department of Commerce, HCHB 3421 
 
1401 Constitution Avenue NW 
 
Washington, DC 20230 
 
               v 
 
               f 
 
  
 




                                              1
Appropriation      Program Name      Program Description Vendor/Implementing           Legal Instrument          Identifier      Project Cost    Start Date   End Date       Funding    Benefitting 
    Year                                                       Partner                                                                                                        Source     Country/ 
                                                                                                                                                                                          Region
                 Marble Feasibility  Assess the feasibility  Commonwealth Trading         Contract             D11PD19142        $487,680.44     9/19/2011    12/18/2011   Interagency  Afghanistan
                      Study            of establishing an       Partners, Inc.                                                                                              transfer of 
                                     Afghanistan center of                                                                                                                    Foreign 
                                      excellence for their                                                                                                                  Assistance 
                                           “extractive                                                                                                                      funds from 
                                       industries” and to                                                                                                                  USAID under 
    2011
                                         determine the                                                                                                                        §632(a)
                                     human capital needs 
                                          to do so ‐ if 
                                           applicable


                   MOU w/CLDP         Agreement to fund      Commercial Law          DOC internalEconomy    ITA‐11‐PAY‐132 MAC   $1,153,086.07   8/25/2011    9/30/2011    Interagency  Afghanistan
                                     design, organization  Development Program             Act MOU                                                                          transfer of 
                                     and execution of five                                                                                                                    Foreign 
                                       commercial law                                                                                                                       Assistance 
    2011                             technical assistance                                                                                                                   funds from 
                                           projects                                                                                                                        USAID under 
                                                                                                                                                                              §632(a)


                 Afghanistan Marble     Create a Marble  FLAG International, LLC          Contract             D12PS00461        $2,883,903.00   9/5/2012      9/5/2014    Interagency  Afghanistan
                  Industry Center of  Center of Excellence                                                                                                                  transfer of 
                     Excellence        to support Afghan                                                                                                                      Foreign 
                                        marble industry                                                                                                                     Assistance 
    2012                                                                                                                                                                    funds from 
                                                                                                                                                                           USAID under 
                                                                                                                                                                              §632(a)


                    Afghanistan     Develop key business        METIS, Inc.               Contract          D12PC00534/0002      $1,897,094.22   9/24/2012    4/30/2014    Interagency  Afghanistan
                     Business       sectors: agribusiness,                                                                                                                  transfer of 
                   Development          construction,                                                                                                                         Foreign 
                     Program            construction                                                                                                                        Assistance 
    2012                                materials, and                                                                                                                      funds from 
                                       marble/mining                                                                                                                       USAID under 
                                                                                                                                                                              §632(a)
           Afghanistan       Technical assistance  Commonwealth Trading      Contract    SAF200112F0237    $149,997.84    9/10/2012    7/15/2014   Interagency  Afghanistan
          Cybersecurity      to GIRoA to assist in    Partners, Inc.                                                                                transfer of 
            Program            development of                                                                                                         Foreign 
                                   national                                                                                                         Assistance 
2012                            cybersecurity                                                                                                       funds from 
                                   strategy                                                                                                        USAID under 
                                                                                                                                                      §632(a)


       Afghanistan Marble  Assistance by Afghan      Afghan International    Contract    SAF20012M1819     $140,000.00    10/1/2012    9/1/2014    Interagency  Afghanistan
        Program Support        marble sector            Services, Inc.                                                                              transfer of 
            Services             experts on                                                                                                           Foreign 
                              management of                                                                                                         Assistance 
2012                         Marble Center of                                                                                                       funds from 
                            Excellence program                                                                                                     USAID under 
                                                                                                                                                      §632(a)


       Afghan‐U.S. Carpet  U.S.‐led conference        Self‐implemented         N/A            N/A          $154,736.82    9/20/2012    9/22/2012   Interagency  Afghanistan
          Conference       for U.S. and Afghan                                                                                                      transfer of 
                              carpet traders                                                                                                          Foreign 
                                                                                                                                                    Assistance 
2012                                                                                                                                                funds from 
                                                                                                                                                   USAID under 
                                                                                                                                                      §632(a)


       Afghanistan Building     Develop inter‐         Barbaricum, LLC       Contract   SB13511NC0638     $1,196,792.00    9/30/2013   11/13/2014 Interagency  Afghanistan
        Business Networks      Afghanistan and                                                                                                     transfer of 
             Program         international trade                                                                                                     Foreign 
                                opportunities                                                                                                      Assistance 
2013                                                                                                                                               funds from 
                                                                                                                                                  USAID under 
                                                                                                                                                     §632(a)


       Afghanistan Carpet       Support DOC's          Hickory Ground        Contract   SB135113NCk0675   $1,097,808.40    9/30/2013    11/3/2014 Interagency  Afghanistan
       Center of Excellence  Afghanistan Sheep to       Solutions, LLC                                                                             transfer of 
            Program             Shop Program                                                                                                         Foreign 
                                                                                                                                                   Assistance 
2013                                                                                                                                               funds from 
                                                                                                                                                  USAID under 
                                                                                                                                                     §632(a)
           Afghanistan                              Federal Acquisition    Contract   SB13511NC0676    $233,397.10     9/30/2013    1/29/2014 Interagency  Afghanistan
          Construction                               Consultants, Inc.                                                                         transfer of 
             Industry                                                                                                                            Foreign 
          Development          Develop Afghan                                                                                                  Assistance 
2013        Program          construction sector                                                                                               funds from 
                                   report                                                                                                     USAID under 
                                                                                                                                                 §632(a)


       Afghanistan Industry  Provide support for     ELIAS Event LLC       Contract   SB135113NC0698    $78,682.40     9/30/2013    9/29/2014 Interagency  Afghanistan
         Spotlight Events  events in Dubai, UAE                                                                                                transfer of 
                               that  provide an                                                                                                  Foreign 
                               opportunity for                                                                                                 Assistance 
                               Afghan and U.S.                                                                                                 funds from 
2013
                               businesses, and                                                                                                USAID under 
                             others,  to network                                                                                                 §632(a)
                                 and conduct 
                                  business.

           Afghanistan    Develop metrics for       Federal Acquisition    Contract   SB135113NC0667    $60,932.00     9/30/2013    7/13/2014 Interagency  Afghanistan
         Monitoring and      Afghan foreign          Consultants, Inc.                                                                         transfer of 
       Evaluation Program assistance programs                                                                                                    Foreign 
                                                                                                                                               Assistance 
2013                                                                                                                                           funds from 
                                                                                                                                              USAID under 
                                                                                                                                                 §632(a)


         Afghanistan        Provide contractor      Federal Acquisition    Contract   SB134113NC0626   $183,724.15     9/30/2013    9/12/2014 Interagency  Afghanistan
         Performance       oversight to support      Consultants, Inc.                                                                         transfer of 
       Monitoring Support  COR due to security                                                                                                   Foreign 
            Project               issues                                                                                                       Assistance 
2013                                                                                                                                           funds from 
                                                                                                                                              USAID under 
                                                                                                                                                 §632(a)


       Afghanistan Regional  Develop Afghan         Federal Acquisition    Contract   SB135113NC0714   $2,078,450.12   9/30/2013   12/31/2014 Interagency  Afghanistan
       Business Integration  companies' capacity     Consultants, Inc.                                                                         transfer of 
          and Outreach        to penetrate new                                                                                                   Foreign 
            Program          markets or increase                                                                                               Assistance 
2013                          exisiting business                                                                                               funds from 
                                                                                                                                              USAID under 
                                                                                                                                                 §632(a)
       Advisor ‐ Sheep to    Advisory services to    Federal Acquisition    Contract   SB13511NC0634    $188,484.55   9/30/2013   11/14/2014 Interagency  Afghanistan
         Shop Program         support Sheep to        Consultants, Inc.                                                                       transfer of 
                                Shop program                                                                                                    Foreign 
                                                                                                                                              Assistance 
2013                                                                                                                                          funds from 
                                                                                                                                             USAID under 
                                                                                                                                                §632(a)


        Advisor ‐ Carpet     Advisory services to    Federal Acquisition    Contract   SB134113NC0633   $188,484.55   9/30/2013   11/14/2014 Interagency  Afghanistan
           Program            support Sheep to        Consultants, Inc.                                                                       transfer of 
                                Shop program                                                                                                    Foreign 
                                                                                                                                              Assistance 
2013                                                                                                                                          funds from 
                                                                                                                                             USAID under 
                                                                                                                                                §632(a)


       Advisor ‐ Program      General program        Federal Acquisition    Contract   SB13411NC0634    $195,236.80   9/30/2013   11/13/2014 Interagency  Afghanistan
                              advisory services       Consultants, Inc.                                                                       transfer of 
                                                                                                                                                Foreign 
                                                                                                                                              Assistance 
2013                                                                                                                                          funds from 
                                                                                                                                             USAID under 
                                                                                                                                                §632(a)
Brown, Jeremy S CIV USARMY HQDA (US)
From:                MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US)
Sent:                Thursday, July 24, 2014 2:35 PM
To:                  Brown, Jeremy S CIV USARMY HQDA (US)
Subject:             FW: 14-71-SP Inquiry Letter- Afghanistan Program Data Request (UNCLASSIFIED)


Classification: UNCLASSIFIED 
Caveats: NONE 
 
Education says they have none/. 
 
‐‐‐‐‐Original Message‐‐‐‐‐ 
From: Manalo, Alvin [mailto:                      
Sent: Thursday, July 24, 2014 1:26 PM 
To: MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US) 
Cc: McLaughlin, Maureen 
Subject: RE: 14‐71‐SP Inquiry Letter‐ Afghanistan Program Data Request (UNCLASSIFIED)‐ to 
Secretary Arne Duncan 
 
Mr. Jack Mitchell, 
 
  
 
Thank you for your letter to Secretary Arne Duncan and the U.S. Department of Education to 
request program and contract data for all of the agency’s reconstruction activities in 
Afghanistan between FY 2002 and the present.  I would like to inform you that the U.S. 
Department of Education does not have any reconstruction projects in Afghanistan between FY 
2002 and the present. 
 
  
 
If you have any questions, please contact Maureen McLaughlin, Director of International 
Affairs, at                           or             . 
 
  
 
Best regards, 
 
  
 
Alvin Manalo 
 
Scheduling and Advance 
 
Office of the Secretary 
 
U.S. Department of Education 
 
  
 
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
 
                                                  1
Brown, Jeremy S CIV USARMY HQDA (US)
From:                Gartner, James - FAS                              ]
Sent:                Tuesday, July 29, 2014 8:35 AM
To:                  Brown, Jeremy S CIV USARMY HQDA (US)
Subject:             RE: SIGAR-14-71-SP Inquiry Letter: Request for Reconstruction Program Data Information
                     (UNCLASSIFIED)


Hi Jeremy, 
 
I've just returned from a two week absence or I probably would have responded sooner.  I 
haven't received any information that there are additional USDA programs in Afghanistan 
beyond what we reported to SIGAR in May of last year.  The soybean project you reference was 
not included in that last report because the prior request stipulated activities involving 
U.S. reconstruction funds and related contracts.  Let me know if you need anything else! 
 
James Gartner 
Management Control Officer and Audit Liaison USDA Foreign Agricultural Service 
             
 
‐‐‐‐‐Original Message‐‐‐‐‐ 
From: Brown, Jeremy S CIV USARMY HQDA (US) [mailto                              ] 
Sent: Monday, July 28, 2014 3:01 PM 
To: Gartner, James ‐ FAS 
Subject: RE: SIGAR‐14‐71‐SP Inquiry Letter: Request for Reconstruction Program Data 
Information (UNCLASSIFIED) 
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
James,  
 
How's it going? Any word on when we might get an updated response on the USDA programs in 
Afghanistan? Thank you! 
 
Jeremy  
 
‐‐‐‐‐Original Message‐‐‐‐‐ 
From: Gartner, James ‐ FAS [mailto:                          ] 
Sent: Monday, June 30, 2014 12:57 PM 
To: Brown, Jeremy S CIV USARMY HQDA (US); MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US); 
Clark, Jerry W CIV (US) 
Cc: HAYASHI, ERNIE M (OIG) 
Subject: RE: SIGAR‐14‐71‐SP Inquiry Letter: Request for Reconstruction Program Data 
Information (UNCLASSIFIED) 
 
Jack / Jeremy, 
 
No problem at all, I'll run this through the agency again to make sure we are being more 
thorough.  Thanks for the clarification, it is helpful. 
 
James 
 
‐‐‐‐‐Original Message‐‐‐‐‐ 
From: Brown, Jeremy S CIV USARMY HQDA (US) [mailto                              ] 
Sent: Monday, June 30, 2014 12:13 PM 
                                                   1
To: MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US); Gartner, James ‐ FAS; Clark, Jerry W CIV 
(US) 
Cc: HAYASHI, ERNIE M (OIG) 
Subject: RE: SIGAR‐14‐71‐SP Inquiry Letter: Request for Reconstruction Program Data 
Information (UNCLASSIFIED) 
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
James,  
 
Yes, we received the document that you sent. We resubmitted the request to USDA because that 
document did not include the Soybean initiative that we have been discussing the past few 
months. Hence, we'd like another look at the programs USDA has funded in Afghanistan to make 
sure that we have them all. Is there a reason that Food for Progress or other FAS initiatives 
would 
not be included as a USDA program?   I should have given you a call to 
clarify, apologies. 
 
Best, 
 
Jeremy  
 
‐‐‐‐‐Original Message‐‐‐‐‐ 
From: MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US) 
Sent: Monday, June 30, 2014 12:00 PM 
To: '                          '; Clark, Jerry W CIV (US); Brown, Jeremy S CIV USARMY HQDA 
(US) 
Cc:                            ' 
Subject: Re: SIGAR‐14‐71‐SP Inquiry Letter: Request for Reconstruction Program Data 
Information (UNCLASSIFIED) 
 
  ) Yes, I think that's right‐‐‐‐you should be in the clear if that is the case.  In Dubia on 
my way home from Afghanistan and double‐checking with 
Jeremy, who handled the first letters.  Jeremy??   JM 
 
‐‐‐‐‐ Original Message ‐‐‐‐‐ 
From: Gartner, James ‐ FAS [mailto                           ] 
Sent: Monday, June 30, 2014 08:14 PM 
To: MITCHELL, JOHN HOWARD (SES) CIV SIGAR EXEC (US); Clark, Jerry W CIV (US); Brown, Jeremy S 
CIV USARMY HQDA (US) 
Cc: HAYASHI, ERNIE M (OIG)                            > 
Subject: RE: SIGAR‐14‐71‐SP Inquiry Letter: Request for Reconstruction Program Data 
Information (UNCLASSIFIED) 
 
Hi Jack, 
 
The attached was confirmed as received by Monica Brym on May 15, 2013, in response to the 
SIGAR Letter of Inquiry Feb 2013 /Contracts and Projects. 
Is this the prior request referenced in the below letter that states acceptable responses 
were received from State, DoD and USAID only?  I'm asking just to determine whether USDA 
should resubmit the attached response (no new activities in Afghanistan have been initiated 
in the year since) or is this June 26, 2014, inquiry completely unrelated to the February 22, 
2013, inquiry. 
 
Thanks Jack! 
 
                                              2
James Gartner 
Management Control Officer and Audit Liaison USDA Foreign Agricultural Service 
             
 
‐‐‐‐‐Original Message‐‐‐‐‐ 
From: SIGAR Pentagon Exec Mailbox Special Projects [mailto:sigar.pentagon.exec.mbx.special‐
projects@mail.mil] 
Sent: Thursday, June 26, 2014 4:45 PM 
To:                                                                                   

                                                                                  


                                                                                           

                                                   
Subject: SIGAR‐14‐71‐SP Inquiry Letter: Request for Reconstruction Program Data Information 
(UNCLASSIFIED) 
Importance: High 
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
Please find the attached inquiry letter regarding program and contract data relating to all 
completed, ongoing, and planned reconstruction projects in Afghanistan between fiscal year 
2002 and the present. This product is presented on behalf of Special Inspector General for 
Afghanistan Reconstruction John Sopko to the following executive agencies and 
departments: 
 
The Honorable Eric H. Holder, Jr. 
Attorney General 
 
The Honorable Jeh C. Johnson 
Secretary of Homeland Security 
 
The Honorable Anthony R. Foxx 
Secretary of Transportation 
 
The Honorable Penny S. Pritzker 
Secretary of Commerce 
 
The Honorable Jacob J. Lew 
Secretary of the Treasury 
 
The Honorable Gina McCarthy 
Administrator of the Environmental Protection Agency 
 
The Honorable Ernest J. Moniz 
Secretary of Energy 
 
The Honorable Sylvia M. Mathews Burwell 
Secretary of Health and Human Services 
 
The Honorable Thomas J. Vilsack 
Secretary of Agriculture 
 
The Honorable Thomas E. Perez 
                                              3
Secretary of Labor 
 
The Honorable Sally M. Jewell 
Secretary of the Interior 
 
The Honorable Sloan D. Gibson 
Secretary of Veterans Affairs (Acting) 
 
 
This letter will be publicly released after period of five [5] days and no earlier than 
Tuesday, 01 July 2014. Please acknowledge receipt of this email and provide official 
responses no later than 14 days or Saturday, 26 July 2014. All respective Inspector General 
offices have been copied to this email correspondence for information purposes. 
 
This product is from SIGAR's Office of Special Projects, which was created to examine 
emerging issues and deliver prompt, actionable reports to federal agencies and the Congress. 
Please note that the Office of Special Projects is separate from SIGAR's Audit Directorate. 
If you have any questions or concerns related to this request, please contact Jack Mitchell, 
Director of Special Projects at (703) 545‐5964 or john.h.mitchell161.civ@mail.mil, and/or 
Jerry Clark, Engagement Manager for Special Projects                or 
                            . 
 
 
v/r 
 
Jack Mitchell 
Director, Special Projects 
 
Office of the Special Inspector General for Afghanistan Reconstruction 
(SIGAR) 
1550 Crystal Drive, 9th Floor 
Arlington, VA 22202 
 
 
 
 
 
 
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
 
 
 
 
 
This electronic message contains information generated by the USDA solely for the intended 
recipients. Any unauthorized interception of this message or the use or disclosure of the 
information it contains may violate the law and subject the violator to civil or criminal 
penalties. If you believe you have received this message in error, please notify the sender 
and delete the email immediately. 
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
 
                                              4
 
Classification: UNCLASSIFIED 
Caveats: NONE 
 
 




                                5
                                                              Summary of Programs Managed by
                                                           USDA Foreign Agricultural Service (FAS)
                                                        Office of Country and Regional Affairs (OCRA)
                                                           Fragile Market Economy Division (FMED)
                                                                        April 19, 2013

Description                #1. ADCUS          #2. CBCMP         #3. e-Afghan         #4. ADAPT          #5. Trade           #6. Food
                                                                 Agriculture                            Corridors           Security
                                                                                                        Trilateral         Trilateral
Contractor Identifier     356002041 A         800326026         946036494 C        946003272 A        8260009450 O               *
Vendor Name                 Purdue          Volunteers for      Regents of the       Calif State       University of         USDA
                           University          Economic         Univ. Of calif-      University/          Idaho           Agricultural
                                            Growth Alliance         davis           Fresno State                           Research
                                                                                     Foundtion                               Service
DUNS Number                07-2051394         05-4001547         04-7120084         15-0837003          07-5746271              **
Contract Value            $3,099,861.00       $36,000,000       $2,099,427.05      $2,853,900.00        $823,145.00       $611,673.00
Type of Contract           Cooperative        Cooperative        Cooperative        Cooperative         Cooperative       Interagency
                           Agreement           Agreement          Agreement          Agreement           Agreement         Agreement
Place of Performance       Afghanistan        Afghanistan       California and       California       Afghanistan and   Afghanistan and
                                                                 Afghanistan                              Pakistan          Pakistan
Period of Performance    From: 9/01/2011          From:        From: 7/15/2011    From: 8/1/2011       From:5/9/2011     From:3/1/2011
                         Thru: 9/30/2014      11/23/2010       Thru: 9/30/2014    Thru: 9/30/2013     Thru:5/31/2013    Thru:2/28/2012
                                            Thru: 11/23/2013

Funding Authorization       PL 99-198        7 USC 3291           PL 99-198          PL 99-198          PL 99-198
Award Date                   9/1/2011         11/23/2010          7/15/2011           8/1/2011           5/9/2011          3/1/2011
Obligation amount         $3,099,861.00      $36,000,000        $2,099,427.05      $2,853,900.00       $823,145.00       $611,673.00
Disbursement amount        $489,340.32      $22,099,839.93       $550,798.43       $1,411,785.80       $489,765.37       $420,347.52
Contract completion         9/30/2014         11/23/2013          9/30/2014          9/30/2013          5/31/2013         2/28/2012
date or planned
completion date (if
available)
Descriptor of Contract   58-3148-1-257       58-3148-1-042     58-3148-1-143      58-3148-1-186       58-3148-1-107     60-0210-1-511
Project Description      See Project #1      See Project #2    See Project #3     See Project #4      See Project #5    See Project #6
                               Below             Below             Below               Below              Below              Below
Sub-Contractors          Altai Consulting   IESC, ICMA, IIE,        N/A           California State     University of     University of
                                                                                    Polytechnic        Agriculture-     California-Davis
                                                                                    University,         Faisalabad
                                                                                  Colorado State
                                                                                    University,
                                                                                  Southern Illinois
                                                                                     University
* Because this was an interagency transfer there is no contractor identifier
** Because this was an interagency transfer there is no DUNS the ARS Account code is 03-T5-0091-108-0210-511
Project #1 -- Agricultural Data Collection and Utilization System Project (ADCUS)
The Ministry of Agriculture, Irrigation and Livestock (MAIL) Agricultural Data Collection and Utilization System Project (ADCUS) is working with
MAIL’s leadership to define a set of critical provincial level data that can be used as benchmarks for the agriculture sector and provide information to
inform MAIL policy. The project also works with MAIL staff to develop the capacity to implement provincial level data collection in accordance with
accepted statistical methodologies.

Project #2 -- Capacity Building and Change Management Program (CBCMP)

Implement a comprehensive change management program at MAIL and select Directorates of Agriculture, Irrigation, and Livestock (DAIL). The
CBCMP is comprised of two components with a unique set of objectives. Component One aims to increase MAIL’s ability to manage its financial,
physical, and human resources. Component Two promotes institutional capacity building and change management through implementation of four
pillars of organizational management: 1) progress scorecards; 2) annual work planning; 3) service-delivery process improvement; and, 4)
organizational structure analysis. Both objectives focus on contributing to and stimulating purposeful, organizational and functional change at MAIL,
leading to a modernized ministry capable of delivering agricultural services.

Project #3 -- e-Afghan Agriculture
USDA/FAS is implementing a program with UC Davis to provide an improved, publically accessible UC Davis Afghanistan Agriculture Knowledge
Resource online. As part of the project, UC Davis is undertaking extensive original research to develop Provincial/District-level agricultural
information to add to national level subject matter. The knowledge base benefits all users working in Afghanistan, and those deploying for service,
who can reference the information created.

Project #4 – Agricultural Development for Afghanistan Pre-Deployment Training (ADAPT)
California State University Fresno Foundation, in coordination with USDA/FAS, is developing and implementing a core curriculum in basic
agriculture and related practices relevant to Afghanistan in technical subject areas including: Animal Husbandry, Rangeland/Pasture Management,
Crop & Horticulture Production, Orchard & Vineyard Management including post-harvest practices, Irrigation Water Management and Soils.
Supplemental curricula can be developed, as requested by USDA, in other subject areas. All curricula address technologies and practices
appropriate to Afghan agriculture with attention to resource and cultural constraints.

Project #5 -- Trade Corridors Trilateral
This program is a coordinated effort by members of the U.S.-Afghanistan-Pakistan Agricultural Trilateral Trade Corridors Working Group from
government and academia along with colleagues from the University of Agriculture, Faisalabad. This program is designed to improve the capacity of
private sector individuals and businesses in agricultural production, food processing, distribution, and exporters to become more profitable providing
expanded trade opportunities domestically and internationally to markets in the Commonwealth of Independent States (CIS) and the developed food
markets in Europe and Asia. The program also provides technical assistance to government employees involved in regulatory activities associated
with international trade throughout the region including criteria for uniform enforcement protocols, international market grades and standards, and
export certification requirements for target markets.
Project #6 -- Food Security Trilateral
Strengthen the extension and delivery systems of Afghanistan and Pakistan to better meet the needs of farmers and the rural
poor.
